                             Federal Register / Vol. 65, No. 43 / Friday, March 3, 2000 / Notices                                11589

  Total Annual Responses: 60,000.                 Title of Information Collection: End        will become operational for purposes of
  Total Annual Hours: 26,000.                  Stage Renal Disease Medical                    requesting information (querying) on
  To obtain copies of the supporting           Information System ESRD Facility               health care practitioners, providers or
statement for the proposed paperwork           Survey.                                        suppliers, on March 6, 2000. The HIPDB
collections referenced above, access              Form No.: HCFA–2744 (0938–0447);            had become operational for purposes of
HCFA’s WEB SITE ADDRESS at http://                Use: The ESRD Facility Survey form          reporting information and accepting
www.hcfa.gov/regs/prdact95.htm, or E­          is completed annually by Medicare              self-queries, as set forth in a Federal
mail your request, including your              approved providers of dialysis and             Register notice published on November
address and phone number, to                   transplant services. The HCFA–2744 is          22, 1999 (64 FR 58851). In addition, the
Paperwork@hcfa.gov, or call the Reports        designed to collect information                Department now is exercising its
Clearance Office on (410) 786–1326.            concerning treatment trends, utilization       authority to impose a $4 fee for queries
Written comments and                           of services and patterns of practice in        submitted by authorized entities to
recommendations for the proposed               treating ESRD patients.                        query the HIPDB, and a $10 fee for use
information collections must be mailed            Frequency: Annually.                        of the Interactive Search Capability of
within 30 days of this notice directly to         Affected Public: Business or other for­     the data bank that is available to
the OMB Desk Officer designated at the         profit and Not-for-profit institutions.        authorized law enforcement agencies. In
following address: OMB Human                      Number of Respondents: 3,761.               accordance with § 61.13 of the HIPDB
Resources and Housing Branch,                     Total Annual Responses: 3,761.              final regulations, the HIPDB will assess
Attention: Allison Eydt, New Executive            Total Annual Hours Requested:               a fee on all requests for information,
Office Building, Room 10235,                   30,088.                                        except requests from Federal agencies.
Washington, DC 20503.                             To obtain copies of the supporting          SUPPLEMENTARY INFORMATION:
  Dated: January 24, 2000.
                                               statement for the proposed paperwork
                                               collections referenced above, access           1. Opening Date for Querying
John P. Burke III,
                                               HCFA’s WEB SITE ADDRESS at http://                The HIPDB will accept queries from
HCFA Reports Clearance Officer, HCFA,          www.hcfa.gov/regs/prdact95.htm, or E­          authorized entities, including
Office of Information Services, Security and
Standards Group, Division of HCFA
                                               mail your request, including your              authorized law enforcement agencies,
Enterprise Standards.                          address and phone number, to                   beginning March 6, 2000. To submit
[FR Doc. 00–5107 Filed 3–2–00; 8:45 am]
                                               Paperwork@hcfa.gov, or call the Reports        queries, registered entities must use the
                                               Clearance Office on (410) 786–1326.            HIPDB website at www.npdb­
BILLING CODE 4120–03–P
                                               Written comments and                           hipdb.com. Specific guidelines for
                                               recommendations for the proposed               querying also can be found on this
DEPARTMENT OF HEALTH AND                       information collections must be mailed         website.
HUMAN SERVICES                                 within 30 days of this notice directly to
                                                                                              2. User fee amount
                                               the OMB Desk Officer designated at the
Health Care Financing Administration           following address: OMB Human                      Section 1128E(d)(2) of the Social
                                               Resources and Housing Branch,                  Security Act (the Act), as added by
[Document Identifier: HCFA–2744]               Attention: Allison Eydt, New Executive         section 221(a) of the Health Insurance
                                               Office Building, Room 10235,                   Portability and Accountability Act
Agency Information Collection                  Washington, DC 20503.                          (HIPAA) of 1996, specifically authorizes
Activities: Submission for OMB                                                                the establishment of fees for the costs of
                                                 Dated: January 24, 2000.
Review; Comment Request                                                                       processing requests for disclosure and
                                               John P. Burke III,
                                                                                              for providing such information, and the
  In compliance with the requirement           HCFA Reports Clearance Officer, HCFA,          final regulations at 45 CFR part 61 set
of section 3506(c)(2)(A) of the                Office of Information Services, Security and
                                                                                              forth the criteria and procedures for
Paperwork Reduction Act of 1995, the           Standards Group, Division of HCFA
                                               Enterprise Standards.                          information to be reported to and
Health Care Financing Administration
                                                                                              disclosed by the HIPDB. The Act
(HCFA), Department of Health and               [FR Doc. 00–5197 Filed 3–2–00; 8:45 am]
                                                                                              requires that the Department recover the
Human Services, has submitted to the           BILLING CODE 4120–03–P
                                                                                              full costs of operating the HIPDB
Office of Management and Budget
                                                                                              through user fees. In determining any
(OMB) the following proposal for the
                                               DEPARTMENT OF HEALTH AND                       changes in the amount of the user fee,
collection of information. Interested
                                               HUMAN SERVICES                                 the Department is employing the criteria
persons are invited to send comments
                                                                                              set forth in § 61.13(b) of the HIPDB
regarding the burden estimate or any
                                               Office of Inspector General                    regulations.
other aspect of this collection of                                                               Specifically, § 61.13(b) states that the
information, including any of the                                                             amount of each fee will be determined
                                               Healthcare Integrity and Protection
following subjects: (1) The necessity and                                                     based on the following criteria:
                                               Data Bank: Announcement of Opening
utility of the proposed information                                                              • Direct and indirect personnel costs;
                                               Date for Querying and User Fees
collection for the proper performance of                                                         • Physical overhead, consulting, and
the agency’s functions; (2) the accuracy       AGENCY: Office of Inspector General            other indirect costs including rent and
of the estimated burden; (3) ways to           (OIG), HHS.                                    depreciation on land, buildings and
enhance the quality, utility, and clarity      ACTION: Notice.                                equipment;
of the information to be collected; and                                                          • Agency management and
(4) the use of automated collection            SUMMARY: In accordance with final              supervisory costs;
techniques or other forms of information       regulations implementing the                      • Costs of enforcement, research and
technology to minimize the information         Healthcare Integrity and Protection Data       establishment of regulations and
collection burden.                             Bank (HIPDB) published in the Federal          guidance;
  Type of Information Collection               Register on October 26, 1999 (64 FR               • Use of electronic data processing
Request: Extension of a currently              57740), the Office of Inspector General        equipment to collect and maintain
approved collection.                           (OIG) is announcing that the data bank         information, i.e., the actual cost of the
11590                        Federal Register / Vol. 65, No. 43 / Friday, March 3, 2000 / Notices

service, including computer search              number of individuals or organizations                          DEPARTMENT OF HEALTH AND
time, runs and printouts; and                   about whom information is being                                 HUMAN SERVICES
   • Any other direct or indirect costs         requested. When an authorized law
related to the provision of services.           enforcement agency uses the ISC to                              Substance Abuse and Mental Health
   In conjunction with the opening of           obtain information on an individual or                          Services Administration
the HIPDB for reporting and as part of          entity, the cost will be $10 for each
its obligations under the Privacy Act,          individual or entity that the authorized                        Fiscal Year (FY) 2000 Funding
the Department had previously                   law enforcement agency enters into the                          Opportunities
announced a $10 fee for health care             ISC.
practitioners, providers or suppliers to          In order to minimize administrative                           AGENCY: Substance Abuse and Mental
self-query (64 FR 58851). Based on the          costs, the Department will accept                               Health Services Administration, HHS.
above criteria, the Department is now           queries submitted by authorized entities
                                                and authorized law enforcement                                  ACTION:     Notice of Funding Availability.
establishing a $4 fee for queries
submitted by authorized entities and a          agencies by credit card or electronic
                                                funds transfer. This fee is effective                           SUMMARY: The Substance Abuse and
$10 dollar fee for use of the Interactive                                                                       Mental Health Services Administration
Search Capability (ISC) available to            beginning March 6, 2000. The
                                                Department will continue to accept                              (SAMHSA) Center for Substance Abuse
authorized law enforcement agencies.
                                                payment for self-queries only by credit                         Prevention (CSAP) announces the
The ISC permits free-form queries that
are expressly designed to conform to the        card. The HIPDB accepts Visa,                                   availability of FY 2000 funds for grants
                                                MasterCard, and Discover. To submit                             for the following activity. This activity
investigative nature of the request, and
                                                queries, registered entities (including                         is discussed in more detail under
that typically contain significantly less
                                                law enforcement agencies) must use the                          Section 4 of this notice. This notice is
identifying information than the
                                                HIPDB website at www.npdb-                                      not a complete description of the
standard structured queries available to
                                                hipdb.com.                                                      activity; potential applicants must
non-law enforcement entities. The ISC
                                                  The Department will continue to                               obtain a copy of Parts I and II of the
involves far more data processing and
                                                review the user fee periodically, and                           Guidance for Applicants (GFA) before
greater cost per request. This additional
                                                will revise it as necessary. Any changes                        preparing an application. Part I is
cost is the result of the need to use an
                                                in the fee and its effective date will be
iterative, interactive algorithm to narrow                                                                      entitled Cooperative Agreement for
                                                announced through notice in the
a result to one appropriate record from                                                                         Centers for the Application of
                                                Federal Register.
an initial return of up to 100 records.                                                                         Prevention Technologies (CAPT). Part II
   When an authorized entity query is             Dated: February 23, 2000.                                     is entitled General Policies and
submitted for information on one or             June Gibbs Brown,                                               Procedures Applicable to all SAMHSA
more health care practitioners,                 Inspector General.                                              Applications for Discretionary Grants
providers or suppliers, the appropriate         [FR Doc. 00–5169 Filed 3–2–00; 8:45 am]                         and Cooperative Agreements.
total fee will be $4 multiplied by the          BILLING CODE 4152–01–U


                                               Application       Estimated funds available, FY                      Estimated no. of
                  Activity                                                                                                                             Project period
                                                deadline                     2000                                       awards

Centers for the Application of Prevention            4/26/00   $7.5 million * ...............................   five ............................   3 years
  Technologies (CAPT).
  * SAMHSA/CSAP is making $7.5 million available to support approximately five awards under this GFA in FY 2000. This amount may be in­
creased slightly using SAMHSA/CSAP funds in each future year of the project period by up to $3 million. The average award in FY 2000 is ex­
pected to be $1.5 million in total (direct plus indirect costs), assuming the award is funded by SAMHSA/CSAP funds exclusively. Actual funding
levels for each budget period may be significantly augmented on a discretionary basis if current exploratory talks with other federal agencies
sharing SAMHSA/CSAP’s interest in substance abuse prevention result in interagency agreements transferring funds to use for this program’s
use.


  The actual amount available for               substance abuse and mental health                               General Instructions
awards and their allocation may vary,           services activities address issues related
depending on unanticipated program              to Healthy People 2000 objectives of                               Applicants must use application form
requirements and the number and                 Mental Health and Mental Disorders;                             PHS 5161–1 (Rev. 6/99; OMB No. 0920–
quality of applications received. FY            Alcohol and Other Drugs; Clinical                               0428). The application kit contains the
2000 funds for the activity discussed in        Preventive Services; HIV Infection; and                         two-part application materials
this announcement were appropriated             Surveillance and Data Systems.                                  (complete programmatic guidance and
by the Congress under Public Law No.            Potential applicants may obtain a copy                          instructions for preparing and
106–113. SAMHSA’s policies and                                                                                  submitting applications), the PHS 5161–
                                                of Healthy People 2000 (Full Report:
procedures for peer review and                                                                                  1 which includes Standard Form 424
                                                Stock No. 017–001–00474–0) or
Advisory Council review of grant and                                                                            (Face Page), and other documentation
                                                Summary Report: Stock No. 017–001–
cooperative agreement applications                                                                              and forms. Application kits may be
                                                00473–1) through the Superintendent of
were published in the Federal Register                                                                          obtained from the organization specified
                                                Documents, Government Printing
(Vol. 58, No. 126) on July 2, 1993.                                                                             for the activity covered by this notice
                                                Office, Washington, DC 20402–9325
  The Public Health Service (PHS) is                                                                            (see Section 4).
                                                (Telephone: 202–512–1800).
committed to achieving the health                                                                                  When requesting an application kit,
                                                  SAMHSA has published additional                               the applicant must specify the particular
promotion and disease prevention
                                                notices of available funding                                    activity for which detailed information
objectives of Healthy People 2000, a
PHS-led national activity for setting           opportunities for FY 2000 in past issues                        in desired. This is to ensure receipt of
priority areas. The SAMHSA Centers’             of the Federal Register.                                        all necessary forms and information,
